<html>
<title> - ADAPTING TO DEFEND THE HOMELAND AGAINST THE EVOLVING INTERNATIONAL TERRORIST THREAT</title>
<body><pre>[Senate Hearing 115-440]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-440

                ADAPTING TO DEFEND THE HOMELAND AGAINST
              THE EVOLVING INTERNATIONAL TERRORIST THREAT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            DECEMBER 6, 2017

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
               [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
               
               
		U.S. GOVERNMENT PUBLISHING OFFICE 
		
31-263 PDF	       WASHINGTON : 2019

		

        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                   Michael J. Lueptow, Senior Counsel
        Elizabeth E. McWhorter, Senior Professional Staff Member
               M. Scott Austin, U.S. Coast Guard Detailee
               Margaret E. Daum, Minority Staff Director
           Julie G. Klein, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk
                   
                   

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Peters...............................................    14
    Senator Harris...............................................    16
    Senator Hassan...............................................    19
    Senator Daines...............................................    24
Prepared statements:
    Senator Johnson..............................................    31
    Senator McCaskill............................................    32

                               WITNESSES
                      Wednesday, December 6, 2017

Mark E. Mitchell, Acting Assistant Secretary for Special 
  Operations/Low-Intensity Conflict, U.S. Department of Defense..     4
Lora Shiao, Acting Director for Intelligence, National 
  Counterterrorism Center, Office of the Director of National 
  Intelligence...................................................     6
Nikki L. Floris, Deputy Assistant Director for Counterterrorism, 
  Federal Bureau of Investigation, U.S. Department of Justice....     8
Mr. Robin Taylor, Acting Deputy Under Secretary for Intelligence 
  and Analysis, U.S. Department of Homeland Security.............    10

                     Alphabetical List of Witnesses

Floris, Nikki L.:
    Testimony....................................................     8
    Prepared statement...........................................    46
Mitchell, Mark E.:
    Testimony....................................................     4
    Prepared statement...........................................    36
Shiao, Lora:
    Testimony....................................................     6
    Prepared statement...........................................    40
Taylor, Robin.:
    Testimony....................................................    10
    Prepared statement...........................................    50

                                APPENDIX

BBC Article submitted by Senator Hassan..........................    53
Mr. Mitchell's response to Senator McCaskill.....................    63
Responses to post-hearing questions for the Record:
    Mr. Mitchell.................................................    60
    Ms. Shiao....................................................    66
    Ms. Floris...................................................    77
    Mr. Taylor...................................................    85

 
                    ADAPTING TO DEFEND THE HOMELAND
          AGAINST THE EVOLVING INTERNATIONAL TERRORIST THREAT

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Daines, McCaskill, 
Tester, Heitkamp, Peters, Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing is called to 
order. I want to thank the witnesses for your testimony and for 
coming and appearing before our Committee today.
    I ask that my written opening statement be entered into the 
record,\1\ and I will keep my opening remarks brief. We have 
four witnesses here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    The concept of this hearing was pretty simple. Certainly, 
in my lifetime, I have seen terrorism evolve. My first 
awareness of terrorism springing from the Middle East was the 
Munich Games and Palestinians slaughtering Israeli athletes.
    Then we had in the 90s, the attempt to bring down the Twin 
Towers the first time in the bombing. I think six people were 
killed, a number of people--hundreds injured. That was a new 
phase. We basically addressed it as a law enforcement problem.
    Then 9/11 happened, and we had wars in Iraq and 
Afghanistan, and obviously, those wars continue in some way, 
shape, or form.
    Then we had Islamic State of Iraq and Syria (ISIS). It is 
good that we have, by and large, taken away the physical 
caliphate, but as we will hear in the testimony today, we have 
in no way, shape, or form denied them the cyber caliphate. And 
that may be a more persistent long-term threat. So we have 
representatives from the Department of Defense (DOD), the 
National Counterterrorism Center (NCTC), the Department of 
Homeland Security (DHS), and also the Federal Bureau of 
Investigation (FBI) Department of Justice (DOJ) really to 
determine, discuss about what is this new phase of terrorism 
going to look like, what do we need to do to counter it, what 
type of changes potentially in our laws and our tactics should 
we be contemplating and potentially enacting into law to 
address this generational problem. I hate to say that, but this 
is not going away anytime soon.
    So, again, I want to thank our witnesses for appearing here 
today. I am looking forward to a good hearing. I am looking 
forward to learning an awful lot.
    So, with that, I will turn it over to Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Chairman Johnson, and thank 
you to the witnesses for being here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 32.
---------------------------------------------------------------------------
    Congress' is focused now on funding the government, and 
with the budget season shortly upon us, this hearing provides a 
well-timed opportunity to examine the Administration's 
counterterrorism (CT) strategies and priorities.
    Since 9/11, we have we have relentlessly pursued a 
multifaceted counterterrorism campaign to protect our homeland 
from foreign threats. While this Committee generally focuses on 
security efforts here at home, today offers an opportunity for 
members who do not serve on the defense committees to engage 
with the Department of Defense on how DOD is taking the fight 
to the enemy abroad.
    We will also get another chance, coming on the heels of our 
annual threats hearing in September, to hear from the FBI and 
the National Counterterrorism Center on their agencies' vital 
work.
    This hearing is titled ``Adapting to Defend Homeland 
Against Evolving International Terrorist Threat.'' For that 
reason, I invited the Department of Homeland Security to 
provide a witness, since its primary mission, as set in its 
statute, is to ``prevent terrorist attacks within the United 
States and reduce the vulnerability of the United States to 
terrorism.''
    On that note, on Monday, the Senate advanced Ms. Nielsen's 
confirmation vote, and I am pleased that DHS will soon have 
permanent leadership.
    Mr. Taylor, I look forward to your testimony on behalf of 
the Department.
    NCTC Director Nick Rasmussen testified before this 
Committee in September that the most immediate threat to the 
United States is from homegrown violent extremists (HVE), 
meaning people living in the United States who become 
radicalized and conduct attacks here at home.
    At that same hearing, DHS Acting Secretary Elaine Duke 
discussed how attackers' techniques are evolving as they opt 
for, ``simple methods,'' to conduct attacks, using guns, 
knives, vehicles, and other common items to engage in acts of 
terror.
    Preventing radicalization, as well as preventing and 
responding to attack, demands training, support, and other 
resources for State and local governments, law enforcement, and 
first responders.
    I am deeply concerned that many essential counterterrorism 
programs that provide that very support were reduced or 
outright eliminated in the President's Fiscal Year (FY) budget.
    To prevent Americans from becoming radicalized, DHS 
administers the Countering Violent Extremism (CVE) Grant 
Program that assists States, local governments, and nonprofit 
institutions in providing alternatives for individuals who have 
started down the road to extremism. Although Congress 
appropriated only $10 million for DHS to award in grants, the 
Department received applications for 10 times that amount, 
demonstrating the overwhelming interest communities have in 
tackling this problem. Despite that, the President's Fiscal 
Year budget requested zero funding for the CVE grant program.
    I have mentioned this before, but it is worth repeating 
that in July, DHS announced 29 awards through the Complex 
Coordinated Terrorist Attacks (CCTA) Grant Program. That is 
CCTA. Kansas City and St. Louis were both awarded money. I am 
very familiar with how these resources are being used, and they 
are being used wisely and appropriately. Programs like this are 
essential to bolstering security in our cities, but the 
President's budget proposed eliminating this grant program as 
well.
    During her nomination hearing, I asked DHS Secretary 
nominee Kirstjen Nielsen if New York City relied on these 
resources it got from any of the DHS counterterrorism grant 
programs to respond to the Halloween ramming attack. She had no 
doubt that they did.
    Communities count on programs like the Visible Intermodal 
Prevention and Response (VIPR) teams; Urban Areas Security 
Initiative (UASI); Complex Coordinated Terrorist Attack Grant 
Program; and the Law Enforcement Officer Reimbursement Program 
to protect Americans from terrorist attacks and keep our 
country safe.
    But this Administration is reducing and outright 
eliminating funding for these types of initiatives. This 
Administration has to start following the advice of its own 
agencies, experts, and our State and local officials on the 
ground who understand the threats our communities face.
    I am glad you are here today to talk about the essential 
work you and the women and men in your departments do every day 
to fight terrorism. I appreciate your service to our country.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    It is the tradition of this Committee to swear in 
witnesses, so if you all stand and raise your right hand. Do 
you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Mitchell. I do.
    Ms. Shiao. I do.
    Ms. Floris. I do.
    Mr. Taylor. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Mark Mitchell, and Mr. Mitchell is the 
Acting Assistant Secretary of Defense for Special Operations 
and Low-Intensity Conflict. In his role, he supervises DOD's 
special operations and low-intensity conflict activities, 
including counterterrorism, unconventional warfare, direct 
action, special reconnaissance, foreign internal defense, and 
civil affairs. Mr. Mitchell.

 TESTIMONY OF MARK E. MITCHELL,\1\ ACTING ASSISTANT SECRETARY 
FOR SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT, U.S. DEPARTMENT 
                           OF DEFENSE

    Mr. Mitchell. Good morning, Chairman Johnson, Ranking 
Member McCaskill, and Members of the Committee. I am grateful 
for the opportunity to appear before you this morning with my 
colleagues from our other departments, and I would like to 
discuss the changing threat landscape with respect to the 
destruction of the Islamic State of Iraq and Syria's physical 
caliphate and then efforts by the Department of Defense to 
counterterrorist threats within this changing landscape.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mitchell appears in the Appendix 
on page 36.
---------------------------------------------------------------------------
    The liberation of Raqqa and remaining ISIS strongholds in 
the Euphrates River Valley are important milestones in our 
fight against the scourge of ISIS. Our Iraqi and Syrian 
Democratic Forces (SDF) partners deserve much of the credit for 
the success of these efforts. Nevertheless, the elimination of 
the physical caliphate does not mark the end of ISIS or other 
global terrorist organizations. Their defeat on the battlefield 
his dispelled ISIS's claims of invincibility, but their 
ideology remains. Their branches and affiliates will continue 
to seek opportunities to spread their toxic ideology and attack 
all those who do not subscribe to it.
    As ISIS loses territory in Iraq and Syria, its operations 
will become more distributed and more reliant on virtual 
connections. Their terrorist cadres will migrate to other safe 
havens, where they can direct and enable attacks against the 
United States, our allies and our partners, and our global 
interests. They will also continue to radicalize vulnerable 
individuals and inspire them to conduct lone wolf or, as I 
prefer to call them, stray dog attacks. We will continue to see 
ISIS and al-Qaeda threats to our homeland as well as our allies 
and partners from locations in Afghanistan, the Middle East, 
Africa, Southeast Asia, and the Balkan States, among other 
locations.
    Right now, the United States and its allies and partners, 
including 74 members of the Global Coalition to Defeat ISIS, 
must continue to defeat this threat with a shared commitment 
against our common enemies. We must continue to deny ISIS and 
other organizations safe havens where they can plan attacks and 
prey on vulnerable populations.
    We will continue to do this work through credible, 
indigenous voices. To delegitimize their ideology, we must 
discredit their narrative so they cannot recruit and radicalize 
vulnerable populations, and finally, to achieve enduring 
results, we must ensure that our successes on the battlefield 
are complemented by well-resourced post-conflict stabilization 
efforts. These efforts principally led by the Department of 
State and the U.S. Agency for International Development (USAID) 
are critical to cementing the military gains and preventing 
terrorist organizations from reestablishing themselves.
    As we look back on our recent operations, we have learned a 
couple major lessons. Defeating the group requires a whole-of-
government approach and cannot be achieved through military 
efforts alone. Our ``by, with, and through'' approach with 
local partners continues to be effective, and ISIS remains a 
global terrorist threat.
    I will turn now to what DOD is going in the 
counterterrorism realm. I want to reiterate that the enduring 
defeat requires a whole-of-government effort. We must continue 
to promote and support that whole-of-government effort, 
including political, developmental, economic, military, law 
enforcement, border security, aviation security, and other 
elements.
    With respect to military efforts, of course, DOD maintains 
the world's premier counterterrorism force, the finest and most 
capable special operations force in the world. Those forces are 
capable of conducting focused direct action against terrorist 
threats around the globe, including precision air strikes and 
other CT activities, wherever they are required. I would be 
happy to provide additional information on that in a closed 
session.
    Our other CT efforts focus on building our partner capacity 
and capability and enabling their operations. Our approach is 
characterized by the term ``by, with, and through,'' and what 
we mean by that is that our military operations against 
terrorist organizations are generally conducted by our host 
nation partners. U.S. forces work with our partners to train, 
equip, advise, enable, and when authorized accompany them on 
actual operations to improve their effectiveness and their 
professionalism. And through this cooperative relationship, the 
United States can our allies and partners achieve our shared 
strategic goals.
    Secretary Mattis has placed a significant emphasis on 
building and strengthening these partnerships. In addition to 
bilateral relationships with individual countries, we also work 
through regional security organizations and collective security 
missions, such as the African Union Mission in Somalia (AMISOM) 
and the G5 Sahel Task Force. We also work closely with the 
North Atlantic Treaty Organization (NATO) Alliance to help 
ready other partners for a variety of CT efforts. Together, all 
these partners help reduce the requirement for U.S. forces 
overseas.
    Our ``by, with, and through'' approach provides the 
foundation of our CT efforts and capacity building in key 
regions such as Africa's Lake Chas region, North Africa, and 
the Horn of Africa, and increasingly in Southeast Asia.
    As we build the capacities of these partners to bring the 
fight to these violent extremist organizations (VEOs) in the 
short term, we are also shaping and helping sustain their own 
security for the long term. Ultimately, filling the security 
void in these regions will help advance our desired end State.
    All of these challenges require flexible, adaptable tools, 
and the Department is grateful for Congress' efforts to provide 
DOD and the Department of State a variety of authorities. For 
instance, the efforts to reform the security cooperation 
authorities in the 2017 National Defense Authorization Act 
(NDAA) have led us to be able to streamline our CT assistance.
    Regarding legal authorities, the 2001 authorization for the 
use of military force remains a cornerstone of our ongoing U.S. 
military operations and continues to provide us the domestic 
legal authority that we need to use force against al-Qaeda, the 
Taliban, their associated forces in the Islamic State.
    Finally, while focused principally on operations against 
terrorists abroad, DOD also supports its Federal law 
enforcement partners in this shifting threat environment. One 
of the ways that we do that is through robust information-
sharing processes, including biometric data. These information-
sharing agreements contribute to the government's expanded 
screening and vetting efforts, biometric data collected on the 
battlefield, whether by the United States or our international 
partners, is provided through DOD databases to Federal law 
enforcement agencies.
    Similarly, DOD retains a robust antiterrorism force 
protection posture based in part on information provided by the 
FBI, gleaned from its own investigations. That may have bearing 
on DOD personnel and facilities.
    In closing, I would like to say thank you again for the 
opportunity to appear before the Committee on this critically 
important topic, and the Department of Defense appreciates your 
leadership and oversight in this area.
    Thank you.
    Chairman Johnson. Thank you, Mr. Mitchell.
    Our next witness is Lora Shiao. Ms. Shiao is the Acting 
Director for Intelligence at the National Counterterrorism 
Center. In this role, she oversees NCTC's efforts to analyze, 
understand, and respond to the terrorist threat and provide 
insight and situation awareness of developing terrorism-related 
issues around the world. Ms. Shiao.

 TESTIMONY OF LORA SHIAO,\1\ ACTING DIRECTOR FOR INTELLIGENCE, 
  NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Ms. Shiao. Good morning, Chairman Johnson, Ranking Member 
McCaskill, and Members of the Committee. I am pleased to be 
here with my colleagues from DOD, FBI, and DHS.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shiao appears in the Appendix on 
page 40.
---------------------------------------------------------------------------
    As we have said in previous testimony, the terrorist 
landscape we face today involves more threats in more places 
for more terrorist actors than at any time in the past 16 
years. Both ISIS and al-Qaeda have proven to be extremely 
resilient organizations.
    To successfully meet the challenges of the counterterrorism 
and terrorism prevention mission spaces, we will need to 
respond with agility and flexibility, far more of both than our 
enemies can muster, and adopt collaborative approaches with 
State and local law enforcement, with our foreign partners, and 
with the private sector.
    I will begin by addressing the current threat picture 
starting with ISIS and its continued setbacks on the 
battlefield. Though the group has lost a number of senior 
leaders, it has been expelled from almost all of its 
territorial strongholds and has suffered other significant 
defeats in the heart of its so-called caliphate.
    These losses are depriving the group of what was once a key 
part of its global narrative, but it is worth noting that ISIS 
takes a long view of the conflict, and the group's leadership 
sees itself as having overcome hardships before.
    The group has already adapted its narrative to compensate 
by portraying the struggle as a long-term process that will 
test the fortitude of its followers. So we expect that ISIS 
will revert to the model of its predecessor organization, al-
Qaeda and Iraq, and become an insurgency, with the long-term 
goal of attempting a resurgence.
    Meanwhile, the group's external operations capabilities 
have been building and entrenching over the past 2 years, and 
as we have seen, ISIS has launched attacks in periods where it 
held large swaths of territory and also when it has been under 
significant pressure from the Defeat ISIS Campaign.
    And unfortunately, we do not see ISIS's loss of territory 
translating into a corresponding reduction in its inability to 
inspire attacks. ISIS has either claimed or been linked to at 
least 20 attacks against western interests worldwide since 
January. The group has inspired attacks in the United Kingdom 
(UK) and throughout Europe, and of course, most recently in the 
United States, in New York City on Halloween.
    The number of arrests and disruptions we have seen 
worldwide tells us that ISIS's global reach remains largely 
intact, even as the group is being defeated on the battlefield.
    When speaking about the global threat, as focused as we are 
on the challenges from ISIS, al-Qaeda has never stopped being a 
top priority for the counterterrorism community. We remain 
concerned about al-Qaeda's presence in Syria. We know that 
there are veteran al-Qaeda operatives there, some who have been 
part of the group since before September 11, 2001.
    The various al-Qaeda affiliates have also managed to 
sustain recruitment, maintain local relationships, and derive 
sufficient resources to enable their operations.
    So we see this continued revolution of al-Qaeda as evidence 
of its resiliency, and we know that it retains the intent to 
carry out attacks against the United States and our interests.
    I have outlined this dynamic threat that we face from ISIS 
and al-Qaeda, but it is worth reiterating that here in the 
United States we are most concerned about homegrown violent 
extremists, especially as extremist propaganda encourages 
simple tactics and readily available weapons that do not 
require specialized training and present fewer opportunities 
for law enforcement detection.
    When it comes to tackling a threat of those mobilized 
extremist violence particularly here in the United States one 
of the areas where we as a counterterrorism community have made 
great strides and where we continue constant improvements is in 
sharing intelligence across national security organizations and 
with a full array of State, municipal, local and law 
enforcement and first responder professionals as well as with 
our foreign partners.
    We at NCTC bring to bear our unique access to all sources 
of counterterrorism information and a whole-of-government 
coordination function, and those are capabilities that become 
even more important in an increasingly diverse threat 
environment like the one we are facing today.
    Our tactically focused analysts are constantly pursuing 
non-obvious and unresolved threads that could yield relevant 
information, and passing intelligence leads to our partner 
agencies who can act on them. Our strategically focused 
analysts look for trends and context that can be shared with 
those serving our first lines of defense against terrorism.
    In the strategic planning realm, our efforts provide 
governmentwide coordination and integration of department and 
agency actions on key lines of effort, ensuring that all 
instruments of national power are being leveraged against the 
threat.
    We are focused on improving the counterterrorism toolkit 
beyond the hard power tools of disruption and believe it 
requires greater investment in terrorism prevention, 
specifically in the United States to stop the recruitment of 
American youth, and to ensure we are equipped to respond and 
prevent all forms of violence.
    By leveraging Federal, State, and local partners, including 
the private sector, we can create a culture of prevention and a 
greater degree of resilience in our communities across the 
Nation.
    I will end there, Mr. Chairman, and thank you and the 
Committee for your continued support to the outstanding 
officers who are dedicated to the counterterrorism mission. I 
look forward to your questions.
    Chairman Johnson. Thank you, Ms. Shiao.
    Our next witness is Nikki Floris. Ms. Floris is the Deputy 
Assistant Director for Counterterrorism for the Federal Bureau 
of Investigation. In her role, she oversees domestic and 
international terrorism financing operations, strategic 
operations, and counterterrorism analysis. Ms. Floris.

TESTIMONY OF NIKKI L. FLORIS,\1\ DEPUTY ASSISTANT DIRECTOR FOR 
    COUNTERTERRORISM, FEDERAL BUREAU OF INVESTIGATION, U.S. 
                     DEPARTMENT OF JUSTICE

    Ms. Floris. Good morning, Chairman Johnson, Ranking Member 
McCaskill, and Members of the Committee. Thank you for the 
opportunity to appear before you today. I look forward to 
discussing the changing threat landscape with respect to the 
destruction of ISIS' physical caliphate and efforts by the FBI 
and its partners to counterterrorist threats within this 
changing environment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Floris appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    I have been working in the Counterterrorism Division in the 
FBI for the better part of the last decade, and I have watched 
this organization continuously evolve to address the most 
concerning and imminent threats posed by extremists. Preventing 
terrorist attacks has been and remains the FBI's top priority.
    The FBI assesses that ISIS and homegrown violent 
extremists, pose the greatest threat to U.S. interests in the 
homeland and abroad. With ISIS, we are dealing with a group 
that at one point was able to coordinate and direct external 
attacks from its safe haven in Syria and Iraq while 
simultaneously advocating and propagating lone wolf attacks in 
western countries. Though degraded, we are now faced with these 
threats as well as the possibility of foreign fighters 
returning to their home countries, some having gained valuable 
battlefield experience in a network of like-minded extremists.
    At home, we are faced with a continuing threat of HVEs, 
those inspired by the global jihad movement though not directly 
collaborating with a foreign terrorist organization. HVEs can 
plan and execute an attack with little to no warning due to 
their operational security and familiarity with the intended 
target.
    The compartment and nature of lone offender attack planning 
challenges the ability of security services to detect 
preoperational activity and disrupt attack preparation, while 
complicating the intelligence community's (IC) efforts to 
determine potential overseas connections and motivations.
    As I said, the FBI has evolved, and we must continue to do 
so, not just evolve to face new threats, but old threats that 
use new and creative tactics, techniques, and procedures. 
Probably, more than ever, the rapid evolution and the way the 
world uses technology is impacting the way we work to keep 
America safe.
    As technology advances, so too does terrorist use of 
technology to communicate, both to inspire and to recruit. 
Their widespread use of technology propagates the persistent 
terrorist message to attack U.S. interests here and abroad.
    Many foreign terrorist organizations use various digital 
communication platforms to reach individuals they believe may 
be susceptible and sympathetic to extremist messaging. However, 
no group has been as successful as drawing people into its 
perverse message as ISIS.
    ISIS uses high-quality traditional media platforms as well 
as widespread social media campaigns to propagate its extremist 
ideology. We have even seen ISIS and other terrorist 
organizations use social media to spot and assess potential 
recruits.
    Through the Internet, terrorists overseas now have direct 
access to our local communities to target and recruit our 
citizens and spread the message of radicalization faster than 
we imagined just a few years ago. Unfortunately, the rapid pace 
in advances in mobile and other communication technologies 
continues to present a significant challenge to conducting 
electronic surveillance of criminals and terrorists. There is a 
real and growing gap between law enforcement's legal authority 
to access the digital information and our technical ability to 
do so.
    The FBI refers to this growing challenge as going dark, and 
it impacts the spectrum of the work we do in the FBI. In the 
counterterrorism context, for instance, our agents and analysts 
are increasingly finding that communications between groups 
like ISIS and potential recruits occur in encrypted private 
messaging platforms. As such, the content of these 
communications is unknown.
    As a threat to harm the United States and U.S. interest 
evolves, we must adapt and confront these challenges, relying 
heavily on the strength of our partnerships, partnerships 
within the intelligence community, with State and local 
partners, with foreign partners, and increasingly with the 
private sector.
    The FBI will continue to evolve promoting a culture of 
innovation and using all lawful investigative techniques and 
methods to combat these terrorist threats to the United States.
    We will continue to collect, exploit, and disseminate 
intelligence to inform and drive our operations on a daily 
basis. In doing so, we will remain agile in our approach to 
combating threats by realigning resources as necessary in the 
current dynamic threat picture.
    Chairman Johnson, Ranking Member McCaskill, and Committee 
Members, I thank you for the opportunity to testify concerning 
the evolving threats to the homeland and the challenges we face 
in combating these threats. I am happy to answer any questions 
you might have.
    Thank you.
    Chairman Johnson. Thank you, Ms. Floris.
    Our final witness is Robin Taylor. Mr. Taylor is the Acting 
Deputy Under Secretary for Intelligence and Analysis (I&A) at 
the Department of Homeland Security. In this role, Mr. Taylor 
is responsible for key intelligence activity supporting DHS; 
State, local, tribal, territorial, and private-sector partners; 
and the intelligence community. Mr. Taylor.

 TESTIMONY OF ROBIN TAYLOR, ACTING DEPUTY UNDER SECRETARY FOR 
INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Taylor. Good morning, Chairman Johnson, Ranking Member 
McCaskill, and Members of the Committee. I would like to take a 
moment to thank you for the invitation to speak before you 
today regarding DHS's Office of Intelligence and Analysis' 
unique role in sharing information and intelligence with our 
Homeland Security partners in order to better prepare them and 
inform them of CT activities occurring within the Nation. It is 
truly an honor to be here.
    My testimony has been submitted for the record,\1\ and with 
your permission, I will have a few opening remarks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Taylor appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    First, let me make a comment and thank the dedicated men 
and women of the Department of Homeland Security and 
specifically those at the Office of I&A for their relentless 
service to our Nation. They have an enormous task or mission 
focus, are passionate, and work tirelessly every day to shield 
our Nation from terrorists and other threats, and for that, 
they deserve our thanks and recognition.
    DHS shares the concerns as previously expressed by my 
colleagues today. Our perspective that the terrorist threat to 
our country is changing, as such we need to change and adjust 
as well.
    While the threat of carefully planned large-scale 
operations that are plotted by global jihadist groups such as 
ISIS and al-Qaeda remain a concern, the trend of homegrown 
violent extremism, such as we saw in New York City on 
Halloween, are alarming.
    As Acting Secretary Duke recently testified before this 
Committee, DHS is rethinking homeland security in the new age. 
The line between the home game and the away game is now 
blurred. The dangers we face are more dispersed, with the 
threat of networks that proliferate across our borders, both 
physically and in the cyber realm.
    As a result, DHS is changing its approach to homeland 
security. We are working to better integrate our intelligence 
and operations, to enhance and streamline inner-agency 
engagements, and to boast our engagement and information 
sharing with both our international and domestic partners.
    It is a critical time, and we must work to build as 
complete a threat picture that is facing our Nation as possible 
to enable our front-line officers the ability to respond to and 
mitigate to these new threats.
    In support of these efforts, I&A works to provide our 
homeland security enterprise partners the most timely and 
relevant information and intelligence needed to keep the 
homeland safe, secure, and resilient.
    As you are aware, I&A is the only member of the U.S. 
Intelligence Community statutorily charged to deliver 
intelligence to our State, local, tribal, and private-sector 
partners. In meeting this obligation, we endeavor to develop 
and share unique homeland-focused intelligence and analysis 
from DHS and our other IC partners at the lowest classification 
level possible to ensure our stakeholders are informed of the 
persistent CT threat, thereby allowing them to better identify, 
disrupt, and respond to the developing threats occurring within 
their areas of responsibility.
    Working along with our FBI and other IC colleagues, we 
assess motivations of HVEs, identify and observe behaviors, and 
report and share developing terrorist tactics and techniques 
with our partners. We are committed to this effort.
    Let me conclude the terrorist threat is dynamic, and those 
who operate individually or are part of a terrorist 
organization will continue to challenge our security measures 
here and abroad. No single agency or organization can 
accomplish this mission of keeping the homeland safe alone, nor 
can any one person, organization, or program do everything 
possible to prevent the next terrorist attack.
    But when we work together, we share information, utilize 
tools and programs that are collaborative, we are stronger, and 
we make a difference.
    DHS will continue to work alongside of our colleagues from 
the FBI, NCTC, and DOD, and along others across the Federal 
Government and with our State and local partners to identify 
potential threats that are risking our interest abroad and our 
community here at home.
    Again, Chairman Johnson, Ranking Member McCaskill, thank 
you for the opportunity to speak before you today. I look 
forward to your questions.
    Chairman Johnson. Thank you, Mr. Taylor.
    Again, I want to thank all the witnesses for your testimony 
and for your service to this Nation. I appreciate the fact that 
you also acknowledge the service to all the men and women that 
serve in your agencies, and we certainly want to acknowledge 
and recognize that as well.
    Again, to be respectful for other Members' time, I 
appreciate their attendance, so I will just defer my own 
questioning until the very end.
    Senator McCaskill. Thank you.
    As I indicated in my opening statement, I am really worried 
about the cuts that have been proposed by this Administration 
to the very programs that address everything you all talked 
about.
    Let me ask you first, Mr. Taylor. Has the White House 
through the Office of Management and Budget (OMB)--the budget 
that is gone over for the next fiscal year, your Department put 
together, and this has all been under the Administration of 
Donald Trump, and the people that are there at the top levels 
of that Department are in fact people who were put there by the 
President. So you all have sent a budget over to the Office of 
Management and Budget. Have they agreed with you on the amounts 
that you have request to fight terrorists in the United States 
for the next fiscal year?
    Mr. Taylor. Senator, thank you for your question.
    I am aware of the letter in which you recently sent last 
week to the Department, and it is my understanding that the 
Department is working expeditiously to answer and meet your 
deadline of December 20.
    Senator McCaskill. That is a different--I am talking about 
you all put together your budget, and the way this works is you 
send it over for them to then weigh in. So you all have sent 
over to OMB a budget, what you think is necessary to fight 
terrorism in this country. My question to you is, Have you 
heard back from them? Do they agree with your request as it 
relates to fighting terrorism?
    Mr. Taylor. Madam, as I was mentioning, I do not have any 
direct visibility on the ongoings of that process. I was not 
part of that.
    Now Secretary Nielsen has identified in her proceedings 
before you that she was concerned of the submission, and she 
would review that. I would just propose that as they are 
pulling together the final details to submit, in response to 
your letter, I need to defer to them. I just do not have the 
insight that you are asking for to provide you with----
    Senator McCaskill. I am just curious because if I were in 
your job and we sent over a request for funding for the things 
that you directly work with every day--and it would appear to 
me that if OMB came back with ``yes, we agree,'' that would be 
something that would resonate through the agency, or if they 
came back and said, ``No. We are doing away with all the VIPR 
teams. We are doing away with all of that stuff,'' that would 
also be something that would resonate through the agency. Are 
you telling me there has been no word through the agency, one 
way or another, how the Administration has made a determination 
for the budget request that you all submitted a few months ago?
    Mr. Taylor. Madam, I can just advise you that I have not 
had any visibility, nor was anything passed to me prior to the 
hearing today.
    I think your concerns are certainly relevant. The impact of 
the billions of dollars that have gone to State and locals over 
the years have certainly built a capacity for preparedness and 
response, and any cuts to that are additionally a concern. But 
with that said and not understanding the calculus that was 
placed into the proposal that was submitted to the budget or to 
the President, I would have to say I am confident that what is 
proposed at least weighed and strived to manage the threats 
that are relevant in those areas that need to still be pushed 
forward for capacity building----
    Senator McCaskill. Yes. The place I am going to be 
concerned is if we learn that, in fact, what the agency has 
asked for has been cut significantly. That is what is going to 
worry me.
    I see the first year when the budget was prepared by 
another Administration, but if the folks that are there now 
that the President has expressed confidence in have said, 
``This is what we need to fight terrorism,'' and OMB comes back 
and says, ``No, not so fast,'' especially something like a VIPR 
team--a VIPR team is something that is used in our airports 
effectively.
    Would anyone disagree the VIPR teams are effective in the 
airports? Any disagreement from any of the witnesses?
    OK. How important in your opinion for--Secretary Mitchell, 
how important is the State Department's work in terms of 
counterterrorism?
    Mr. Mitchell. I think the State Department plays an 
important role overseas in aiding our counterterrorism efforts. 
They have a number of programs that support DOD's efforts, and 
DOD likewise supports the State Department's efforts.
    Senator McCaskill. If you know for the record, now, but if 
not, if you would get back to me--I know this is not your 
Department, but we do not have anyone here from the State 
Department. There has been $10 billion of cuts to the State 
Department. What, if any, impact has that had on the work that 
they are doing that is so vital in terms of diplomacy and other 
efforts in terms of augmenting what the Department of Defense 
is doing?
    Mr. Mitchell. I will have to take that as a question for 
the record----\1\
---------------------------------------------------------------------------
    \1\ The response from Mr. Mitchell appears in the Appendix on page 
63.
---------------------------------------------------------------------------
    Thank you.
    Senator McCaskill. And finally, for the FBI, first of all, 
let me just say for both the intelligence community and the FBI 
that is represented here today, let me tell you that most 
Americans do not see the men and women who work in your 
agencies. They do not wear a police uniform, but they are just 
as much on the front lines as any first responder, law 
enforcement agent in the country. And anyone who denigrates the 
men and women who risk their lives in intelligence or in the 
FBI is undermining the foundation of rule and law in this 
country, and please carry back to all the men and women that 
work in both of your agencies how much we respect the service 
they give to this country. And that when people denigrate them 
for political purposes, many of us disagree with that.
    And I do have a question about domestic terrorism, but I 
will save it to the next round because I am out of time.
    Chairman Johnson. Senator Peters.
    Senator McCaskill. Oh, wait. I have 52 seconds. I can get 
it in. [Laughter.]
    FBI, I know you all have identified domestic terrorism 
movements, and you work in terms of trying to track those 
movements and the dangerous activities, violent activities that 
they sometimes engender. Would it be helpful to have a statute? 
You all have no statute to deal with domestic terrorism that 
would be similar to the international terrorism statutes that 
we have on the books, and that is hard for me to understand the 
rationale between that difference. Could you speak to that?
    Ms. Floris. Sure. And first, thank you, ma'am, for your 
comments concerning the FBI and the intelligence community. 
Greatly appreciated.
    Regarding domestic terrorism, you are absolutely correct. 
There is not a statute. We cannot charge someone with material 
support to a domestic terrorism group, and we actually do not 
have designated domestic terrorism groups.
    Whether or not that statute would help, I would certainly 
defer to my colleagues at the Department of Justice, but 
absolutely, I believe that would help as another tool in 
defending the Nation against domestic extremists, absolutely.
    Senator McCaskill. Because we certainly have had more 
domestic extremist attacks in this country over the last 
several years than we have had terrorist attacks; is not that 
correct?
    Ms. Floris. I would have to go back, ma'am, and look at the 
exact numbers. I know on the disruption front, on both domestic 
terrorism and international terrorism over this last year, over 
a hundred, both domestic terrorism and over 100 international 
terrorism disruptions in the United States.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman and Ranking Member, 
for calling this hearing, and to our witnesses, thank you for 
your testimony today. And thank you for being on the front 
lines of thinking how we deal with this threat that affects us 
each and every day.
    In listening to your comments, I certainly noted the trends 
that you are seeing with ISIS and Syria and Iraq and that we 
have been very effective. I just got back from a trip to Iraq, 
and I know we have been very effective in taking territory away 
from them and certainly changing the narrative that they use as 
a result of that, but as was mentioned, they still pose a 
significant threat to us in the cyber domain. And it is 
certainly my belief and I think it is probably the belief of 
each and every one of you that probably the most significant 
national security risk we face as a country comes from the 
cyber threat that we must deal with.
    Given that, there was a recent blog post by former 
Secretary of Defense Ashton Carter, and I would love to have 
each of you respond to his comments. And in that blog post, he 
stated that he was ``largely disappointed in cyber command's 
effectiveness against ISIS.'' He assessed that the U.S. 
Government failed to produce any effective cyber weapons or 
techniques to counter the ISIS threat.
    Just curious as to your reaction to that. Are we producing 
effective weapons? If not, what do we need to do?
    We will start with you, Mr. Mitchell.
    Mr. Mitchell. Thank you for the question, Senator.
    I think we have been effective against the Islamic state in 
their cyber realm, in their media production. Most of that has 
come, though, on the battle field, but we have also done some 
efforts that I think exceed the classification of this forum 
and would be glad to talk about those in a different arena.
    Senator Peters. Well, I appreciate that, and we do not 
need--the question was not asking those types of questions, but 
generally, are we resourcing this properly enough? Do we need 
to do more as a Committee that can work with you to make sure 
that we are dealing with the issue effectively?
    Mr. Mitchell. I think the one area--again, cyber is not my 
portfolio within the Department. It belongs to Ken Rapuano, who 
I think this Committee is familiar with. But the one area where 
I do see an issue is defining what constitutes traditional 
military activities in cyberspace where there are no boundaries 
and identifying the proper role of various departments and 
agencies with respect to those operations.
    I think it is less a question from my perspective of 
weapons and authorities as it is permissions and delineation 
between the respective departments.
    Senator Peters. Ms. Floris, I will jump to you on this 
question. As you answer this, but in particular, I would like 
you to elaborate on a comment that you made during your 
testimony, whether we need to find real partners in the private 
sector if we are going to effectively deal with the cyber 
threat. Obviously, with some of our social networking providers 
like Facebook, Twitter, YouTube, and others have made some 
positive steps forward, but I assume they need to do more as 
well as other sites. So would you elaborate on how we deal with 
the cyber threat here in our country by actively engaging 
private enterprise?
    Ms. Floris. Absolutely, sir. As I mentioned, we are 
increasingly looking to build our relationships with the 
private sector partners, these companies that have access to 
data, to individuals, to algorithms that are really on the 
front line of some of the individuals that we are looking to 
identify.
    I think one of the biggest gaps right now is what we like 
to call identifying the unknowns. Who are those individuals who 
are not necessarily on the radar of the intelligence community 
right now, and do these private-sector companies have access to 
information that could essentially identify someone that then 
would be of investigative concern to the FBI? So really looking 
at retail sectors, banking sectors, individuals out in the 
community who have expressed a willingness to work with the 
U.S. Government when it comes to national security concerns.
    Thank you.
    Senator Peters. Thank you.
    Mr. Shiao, I want you to answer this question too. I want 
to pick up and have you expand on a comment you made in your 
testimony. Although ISIS has lost territory, we have not 
stopped their effectiveness to potentially strike the homeland. 
I assume that is through the cyber threat, but if you could 
elaborate on that comment while addressing the cyber question?
    Ms. Shiao. Absolutely. Well, from a purely cyber 
perspective, I think it is worth emphasizing that ISIS really 
has minimal hacking skills. They are able to deface websites. 
They have put out hit lists of personally identifiable 
information (PII) on westerners, but this is primarily for 
intimidation. It is not a key strength for them. So I just want 
to make that distinction and then talk a little bit about the 
propaganda space, where obviously they have had much more 
impact.
    One thing I will say about the propaganda space and in 
terms of HVEs in particular, there is a lot of information out 
there. We can say it is thick in the HVE bloodstream already, 
so to speak. So even as we are able to degrade some 
capabilities to continue to put out and sustain the pace of 
media releases, we are aware that there is plenty of extremist 
content out there already in cyberspace.
    In terms of particularly the companies, as you mentioned, 
Twitter and Telegram and several others have really worked on 
their capability to automatically identify and delete ISIS-
related content, but they are very challenged because ISIS is 
quickly able to reconstitute those accounts and to migrate to 
new platforms.
    We had seen them in the past relying on Twitter and 
Telegram to spread their extremist content, but they are using 
other platforms now. They are using something called Baaz, 
which is a social media app that is geared toward the Middle 
East, and we have seen them kind of adopt this widespread use 
of private groups and encrypted apps as well. They share their 
video content largely on free file-sharing sites. Archive.org 
is one of those.
    When it comes to working with the companies, we think that 
they have great intent to want to tackle this, but sometimes 
they lack the CT expertise. So we at NCTC have reached out to 
them and been engaging on ways we can be helpful in terms of 
providing education and sharing insight, and of course, as I 
alluded to in my remarks, making sure that there are alternate 
narratives available.
    Senator Peters. Mr. Taylor, we have limited time, but I 
would love to hear your thoughts.
    Mr. Taylor. Thank you, Senator.
    I think on two fronts. One, of the cyber threat aspect, 
DHS's Office of National Protection Programs Directorate (NPPD) 
really leads our response in working with the critical 
infrastructure component as it comes to the private sector.
    DHS Office of Intelligence and Analysis informs them 
through identifying the threat that is posed to the critical 
infrastructure and then allowing them to work with the private 
sector to identify and mitigate the threat, what is the 
appropriate response, and what are long-term vulnerabilities 
associated with it.
    I would also just comment very quickly on the propaganda 
aspect that DHS has been working with the tech companies on the 
Global Internet Forum to combat terrorism, which is really 
trying to help them learn to police themself and identify the 
terrorist content that is posted and allow them to quickly 
remove it from the Internet.
    Senator Peters. With that, I will yield my time. I 
appreciate it. Thank you very much.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Ms. Flores, a few questions for you, but first, I hope you 
will relay to the men and women of the FBI that we deeply and 
profoundly appreciate their work, their professionalism, and 
their service to this country, the work that they do that 
ranges from enforcement of laws as it relates to human 
trafficking and transnational criminal organizations (TCOs) to 
the work that they do contributing to our national security. It 
is critical work. They do it often without any recognition. 
They leave their homes knowing that they are putting themselves 
and their family at risk and all in service to our country. So 
please relay to the men and women of the FBI how much we 
appreciate their work and their service to our country.
    So the question that I have, as you know, ISIS has been 
successful over the years in radicalizing people online through 
jihadist propaganda. The New York Times has reported that until 
recently, hundreds of hours of Anwar al Awlaki's talks were on 
social media within easy reach of anyone with a phone or a 
computer.
    At the same time, we are witnessing growing social media 
use through official and personal accounts of some of the 
highest officials in the White House and the Federal 
Government. This heightened social media usage can have far-
reaching implications for our foreign policy with our allies 
and can shape the extremist propaganda used by our enemies.
    So my question is, Has the FBI examined the role that 
social media posts or videos from our own government officials 
affect the online recruitment tactics used by ISIS? Have you 
done that assessment, and what is it?
    Ms. Floris. First, ma'am, thank you again for your comments 
regarding the work of the FBI.
    Regarding posts specifically by members of the government 
and how that impacts radicalization, we have not looked into 
that. We have looked at how the Internet plays a role in 
radicalization writ large and certainly concur with my NCTC 
colleague that the Internet is the primary vehicle of which our 
subjects use to radicalize and then mobilize.
    As it relates specific to your question, ma'am, we just do 
not have that data available.
    Senator Harris. And have you counseled or advised our own 
Federal Government officials about their use of social media as 
it relates to the content that could be used for jihadist 
propaganda?
    Ms. Floris. Within the Counterterrorism Division, we have 
not, but I can certainly take that question back to see if any 
of my colleagues within the FBI have.
    Senator Harris. Thank you.
    As jihadist propaganda increasingly makes its way on to 
social media and the Internet, has the FBI considered issuing 
any guidance to companies to curb online recruitment and 
homegrown violent extremism?
    Ms. Floris. So the FBI specifically has not directed these 
companies to take down extremist material. We have seen 
companies do it on their own accord, but it is not at the 
direction of us, more in concert with our efforts.
    Senator Harris. Thank you.
    Ms. Floris. Sure.
    Senator Harris. Ms. Shiao, you testified that the number of 
ISIS fighters in Iraq and Syria has significantly decreased, 
and I have been to Iraq, as has Senator Peters and most of us I 
think on this Committee, to see the remarkable effort that your 
agency has made and the great work of our U.S. servicemembers 
and coalition partners as we counter ISIS.
    However, ISIS still maintains a number of branches, as you 
know, outside of Iraq and Syria, notably in North Africa, West 
Africa, South Asia, and Southeast Asia. In your testimony, as 
Senator Peters mentioned, you asserted that despite the 
progress that has been made on the battlefield against ISIS 
that its capacity to carry out terrorist attacks has not yet 
been sufficiently diminished because of the robust social media 
capability and ability to reach sympathizers around the world.
    As warfare evolves from physical to online, I have heard 
people talk about it as a bloodless war. Has our national 
security strategy kept pace with this shift?
    Ms. Shiao. Well, I can definitely talk about some of our 
efforts on terrorism prevention, and I would invite DHS to 
chime in as well because they are the lead on many of those 
efforts, but at NCTC, we have developed tools. We have a 
community awareness briefing. It is designed to catalyze 
community efforts, to prevent individuals from mobilizing. We 
have presented that to audience around the United States and 
also overseas, not just law enforcement and public safety, but 
also directly to communities. And then we are training locals 
to be able to do that same kind of engagement.
    And another important effort is the Terrorism Prevention 
Planning Workshop. That is also in cities around the United 
States and that is really taking a particular scenario of an 
individual, radicalizing to violence, and then bringing 
together the community voices and law enforcement to talk it 
through, to identify the gaps that there are, and to create an 
action plan for when something like this can happen in reality 
and to just promote trust between them in general.
    But I would defer to DHS to talk a little bit more on 
terrorism prevention.
    Mr. Taylor. Senator, thank you very much for the question.
    There is two folds when it comes to the prevention piece. 
Last week, Acting Secretary Duke identified a new organization 
which is the Office of Terrorism Prevention and Partnership, 
which is a re-tool of a previous office within I&A, and the 
real goal is that it is trying to, one, create awareness within 
the communities of what threats that are there and many of 
which that may be facilitated through the Internet, but 
informing the resources that are there trying to change the 
message when it comes to the radicalization that is also being 
promulgated on the Internet, and work with those voices that 
are within the communities and that are credible in order to 
try to change the ground game when it comes to the State and 
locals that are there.
    The other aspect of this is also trying to better identify 
early warning type of things, trying to work with the State and 
local law enforcement, and also with those community partners 
in order to ensure that they have as much information as we can 
provide them with what those threats are coming and being 
promulgated from the Internet so that they can take action. And 
that goes through training and just community awareness.
    Senator Harris. Thank you.
    My final question is for Ms. Floris. As Attorney General in 
California, we implemented an implicit bias training for law 
enforcement in the State. It was a collaboration of leaders in 
law enforcement and others, because we understand that no one 
is immune from biases, and as you know, implicit bias should 
not be inferred as accusing someone of being racist or it 
should not be assumed to be a criticism. We are all subject to 
bias.
    So my question is that it is my understanding that Director 
Comey required FBI agents and analysts to receive this 
training. Has the FBI continued this mandatory policy of 
providing implicit bias training for the agents and the lawyers 
of the agency?
    Ms. Floris. Thank you. I do remember that training. I would 
have to go back and see if it is continuing under Director 
Wray's leadership.
    Senator Harris. OK. And please follow up with this 
Committee.
    Ms. Floris. Yes, ma'am. Sure.
    Senator Harris. Thank you.
    I have nothing else.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
McCaskill, for holding this hearing.
    Thanks to all of the witnesses today for not only being 
here but, as importantly, if not more importantly, for your 
work, and I will add my thanks to the thanks you have heard 
from other Members of the Committee for the women and men under 
your leadership for everything they do to protect our country. 
We are very grateful.
    I wanted to start with a question, Ms. Shiao, for you 
because I want to discuss the thread of foreign fighters.
    Last year, then FBI Director Comey alluded to the 
possibility that there would be a flight of ISIS fighters after 
Raqqa fell. These fighters would return to their countries of 
origin or to other countries and carry out attacks against the 
West, was the theory.
    Before this Committee in September, NCTC Director Rasmussen 
gave the impression that the intelligence community's 
assessment was that ISIS foreign fighters would treat Raqqa as 
their Alamo and fight to the death to defend this so-called 
caliphate.
    Since that hearing, Raqqa has fallen, but news reports have 
indicated that rather than fighting to the death, many ISIS 
fighters fled the city. For instance, the Department of 
Defense's own news service published an article on October 10 
entitled ``ISIS Fighters Continue to Flee, DOD Spokesman 
Says.'' So, Ms. Shiao, can you set the record straight on the 
current ISIS foreign fighter threat, now that Raqqa has fallen?
    Ms. Shiao. Absolutely. Thank you for the question.
    So we still expect that many foreign fighters have and will 
stay to fight in the theater and possibly die there, as we have 
seen in previous battles, but at least some will leave.
    This does not mean that they are necessarily going to 
return to their countries of origin, however, nor that they are 
going to congregate in a particular conflict zone. In fact, in 
terms of trend analysis, we have not seen either of those 
things yet.
    But it is worth remembering, I think, in this discussion 
that it is not actually very easy to leave that region. So the 
foreign fighters would have to cross basically three hurdles. 
One, they would have to escape ISIS control, which is not an 
easy thing to do. ISIS often requires that they ask permission 
to leave areas of control and threatens retaliation against 
them as well as their families. The second thing they would 
have to do is evade the military forces in the region.
    Senator Hassan. Yes.
    Ms. Shiao. And the third thing is secure travel documents 
and financial support to get out as well.
    So I think it is worth noting that Turkey has worked with 
the United States to secure large portions of the border with 
Syria. They have deported individuals that they assess belong 
to ISIS, and they have added more weapons and manpower as well 
along areas of the border.
    Senator Hassan. So do we have our own strategy for dealing 
with the ISIS foreign fighter threat post fall of the 
caliphate?
    Ms. Shiao. Well, certainly, when it comes to foreign 
fighters, we have been engaged in working to ensure with DOD 
and with our foreign partners that we have as much information 
about terrorist identities as possible, so we can feed that 
into NCTC's Terrorist Identities Datamart Environment (TIDE). 
TIDE is the basis by which all individuals trying to enter the 
United States through any form of immigration benefit, whether 
it is the refugee program, whether it is visas are screened 
against. So we work with our partners to make sure that that 
information is as robust as possible.
    And as Mr. Mitchell mentioned, one of the key areas that we 
are continuing to work on in that screening arena is biometric 
information, which will be a leap forward.
    Senator Hassan. Right. Thank you for that answer, and let 
me turn to Mr. Mitchell because this next question really falls 
right on what Ms. Shiao was just talking about, because I want 
to touch on the report from the British Broadcasting 
Corporation (BBC) from November 13 that indicated that the 
United States approved a deal to allow ISIS fighters and their 
families to flee Raqqa.
    And, Mr. Chairman, I would like to enter that news story 
into the record.\1\
---------------------------------------------------------------------------
    \1\ The news article appears in the Appendix on page 53.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Hassan. Thank you.
    Here are a couple of the key points from the news story. 
The convoy, according to one of the drivers interviewed, was 6 
to 7 kilometers long, included almost 50 trucks, 13 buses, more 
than 100 of ISIS's own vehicles, and tons of ISIS weapons and 
ammunition. The convoy included scores of foreign fighters from 
``France, Turkey, Azerbaijan, Pakistan, Yemen, Saudi, China, 
Tunisia, Egypt.'' It also reportedly included some of ISIS's 
most notorious members.
    A Pentagon spokesman indicated that this was not a U.S.-
orchestrated deal, but that an agreement had been reached to 
screen ISIS aged males who were leaving as part of the convoy.
    It is clear that anyone who left Raqqa as part of that ISIS 
convoy could potentially be a future terrorist threat, and 
especially any foreign fighters among them. Therefore, it is 
critical that the United States take proper precautions to 
screen and collect fingerprints for everyone on that convoy.
    So I would like to drill down on exactly what kind of 
screening took place. First, to you, Mr. Mitchell, who agreed 
to this deal and this process, and did we administer the 
screening? And did all members of the convoy have their 
fingerprints collected?
    Mr. Mitchell. I thank you for the question, Senator.
    I am not familiar with the BBC report. I do recall the 
discussions of the convoy, but I did not have any insight. 
Those decisions were made by the tactical commanders on the 
ground.
    Senator Hassan. OK.
    Mr. Mitchell. And I would be glad to get back to you with 
additional information to answer that question.
    Senator Hassan. That would be terrific. Thank you.
    Mr. Mitchell. But what I do want to address is one of the 
things that we have done on the battlefield----
    Senator Hassan. Yes.
    Mr. Mitchell [continuing]. Is we have equipped our SDF 
partners and our Iraqi partners, even folks that were not 
actively with biometric screening tools, so that every fighter 
they encounter on the battlefield is being biometrically 
screened and enrolled, and that information is being passed to 
us. So that is the first thing that we are doing.
    The second thing is the Department of Defense in 2014 stood 
up an effort to address really at that time the flow of foreign 
fighters in, but it has since shifted to the flow of foreign 
fighters out. Jordan has over 24 international partners, both 
military, law enforcement, and international organizations. 
That is a forum where we not only share information, 
principally unclassified publicly available information, and we 
help these other partners to take their proprietary information 
from their country about individuals who might have left to 
look at social media and other publicly available information, 
to combine it with that. They share all that with the United 
States, and then they have an opportunity to share with other 
partners.
    Again, it is specifically focused on identifying that flow 
of foreign fighters. It is complementary to the work that is 
done in the intelligence communities.
    Senator Hassan. Yes.
    Mr. Mitchell. But I would be happy in a different forum to 
provide some information on the successes that we have enjoyed 
there.
    Senator Hassan. Well, that would be great, and my time is 
up. So I will just say that I have some follow up questions for 
you all about how this information is coming back to our watch 
list and the like, and I would look forward to submitting those 
questions on the record and getting your responses. Thank you.
    Chairman Johnson. Thank you, Senator Hassan.
    Ms. Shiao, I was encouraged by your testimony in terms of 
the flow of the dead-enders, I guess. Outside, it is very 
difficult to do. What are the primary escape routes? We had the 
migrant flow when Turkey was not really enforcing its borders. 
Has that been the most significant reason we have been able to 
clamp down on that? What are other escape route potentials?
    Ms. Shiao. Certainly, Turkey has been a key area of 
concern. The migrant flow into Europe has improved in the last 
year or so. As you know, ISIS sent several operatives into 
Europe for attacks back in 2015 by exploiting that migrant flow 
of both refugees and migrants themselves, and it has been 
difficult for our European partners to fully vet each 
individual, but there have been increased border controls put 
in place since that time. And the EU-Turkey Migration 
Agreement, which was signed back in March 2016, we think that 
also stemmed the flow a bit.
    And I would just reiterate when we talk about this, I 
mentioned already the fact that we work very closely with our 
foreign partners to make sure that all of the information that 
is available on terrorist identities becomes part of TIDE and 
is useful in terms of screening.
    But I also just want to emphasize that unlike in the 
European space, in the United States applicants who are 
applying for things like refugee benefits have little or no 
control over where they are going to go. They apply through the 
United Nations (U.N.), and the U.N. determines where they are 
going to refer them based on many factors, things like their 
health, whether they have family in a particular place. So that 
in conjunction with the robust screening that I have mentioned 
is definitely something that I think puts us in better stead 
that our European partners, but some of the challenges that 
they face to disruption are very similar in terms of the use of 
secure mobile messaging apps and the fact that these days, we 
are seeing an emphasis in propaganda on using widely available 
materials that make it more difficult for law enforcement to 
detect sort of a lower barrier of entry into that space.
    Chairman Johnson. The biggest risk of ISIS fighters 
escaping the war zone in Syria was really through Turkey, 
correct? There is really not----
    Ms. Shiao. Yes.
    Chairman Johnson [continuing]. Very attractive escape 
routes elsewhere, correct?
    Ms. Shiao. Yes.
    Chairman Johnson. Can you just assess the current 
relationship between al-Qaeda and ISIS?
    Ms. Shiao. The current relationship between al-Qaeda and 
ISIS, well, there will be rivalries there, but that is 
definitely the case. And in some places, for instance, Somalia, 
there is open hostilities between ISIS elements and al-Qaeda-
aligned elements like Shabaab.
    Chairman Johnson. But there are also areas of potential 
agreement and cooperation, and will that relationship continue 
to evolve?
    Ms. Shiao. Sure, it will.
    I mean, I do think in terms of--a good point to make about 
HVEs, because we talk about the two groups as being very 
separate, the typical HVE, both here or someone who is self-
radicalizing and inspired by on the Internet, these 
distinctions between which group, whether it is ISIS or al-
Qaeda, whether it is current propaganda or whether it is 
something very historic like the Awlaki things that are 
available in large abundance online is not necessarily 
important. It is the resonance of the material and the overall 
message, some of the themes coming against the United States 
and the West as fundamental enemies, which are probably what is 
going to resonate most with those kinds of individuals.
    Chairman Johnson. Mr. Mitchell, in a hearing in the Senate 
Foreign Relations Committee, Chairman Corker talked about 19 
different nations or countries that we have a Defense 
Department presence trying to combat this type of terror 
threat. Which are the most likely failed States that could be 
set up as a new base of operations for either ISIS or al-Qaeda?
    Mr. Mitchell. Thank you for the question, Senator.
    I think the areas that we have seen that are the most 
troubling and provide the most potential for ISIS in particular 
to establish a new base, first of all, would be Yemen, which 
has--I think everyone on the Committee is well aware, it has a 
failed government and is racked by civil war. Even when it was 
not civil war, there was extensive conflict within the society 
and support for al-Qaeda, and now we have seen some support for 
the Islamic State there in Yemen.
    Libya, another failed State already. We have seen ISIS 
attempt to establish a foothold there. They have not been 
successful. We have managed to strike some of their training 
camps and set them back pretty significantly, but it is an area 
where I think we will see them continue.
    And then in the Sahel, Southern Libya, Mali, Niger, the 
vast ungoverned spaces there are areas that we are particularly 
concerned with.
    Chairman Johnson. What is the threat within Southeast Asia?
    Mr. Mitchell. We have seen a--first of all, within the 
Philippines, Marawi City, and the ISIS seizure of that and a 
siege that lasted several months. So that is an area of 
increased concern.
    And then Indonesia increasingly has become a haven for 
Islamist extremists. And we have seen it not just in the--
society at large but also in the government. One of the 
challenges that we face with a country like Indonesia and 
foreign fighters returning is that they do not have the 
domestic legal authorities to arrest and charge these people 
with anything, so that--they come, they go into society. Some 
of them do get arrested for other crimes, but we are concerned 
that prisons are serving as a source of radicalization. So the 
threat in Southeast Asia is definitely a concern for us.
    Chairman Johnson. So based on our historical experience, we 
basically allowed al-Qaeda to develop a base of operation in 
Afghanistan, and then we allowed ISIS to rise in the ashes of 
what was al-Qaeda in Iraq. Would it be safe to say that a top 
priority of the Defense Department and really of our U.S. 
policy would be to prevent the buildup to a point where they 
have a pretty strong presence in a failed State? I mean, is 
that, first of all, the first step, a top priority in these 19 
nations?
    Mr. Mitchell. Absolutely. That is one of the reasons, for 
example, why we are in West Africa and why we have been in 
Somalia and North Africa--because we recognized years ago that 
these were potential areas, and we are trying to get there, get 
ahead of the extremists movements there. Same within the 
Philippines and other parts of Asia. And so that is definitely 
part of the Department strategy.
    Chairman Johnson. OK. I am going to have another line of 
questioning.
    Senator Daines, are you ready to ask your questions?

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Yes.
    Chairman Johnson. Go ahead.
    Senator Daines. Thank you, Mr. Chairman, Ranking Member 
McCaskill.
    Thank you all for testifying here today.
    Since 9/11, the United States has made great progress in 
curbing terrorism around the globe, and we are thankful for 
that. As U.S.-backed forces regained control in Raqqa, 
President Trump aptly noted that--and I quote--``The end of the 
ISIS caliphate is in sight.'' Yet our homeland remains very 
vulnerable. In fact, within days of the victory in Raqqa, a 
young man from Uzbekistan drove a truck down a bicycle lane in 
New York City killing eight, wounding a dozen others, in the 
name of Allah. This was noted by the Heritage Foundation as the 
100th terror plot on U.S. soil since 
9/11, just blocks away from One World Trade Center.
    Defending the homeland is arguably more difficult than 
fighting terrorism abroad, given the patchwork of authorities 
and capabilities each agency provides as well as the inherent 
complexities of protecting civil society, without compromising 
constitutional liberties.
    Over the past decade, extremist groups, such as ISIS, have 
increasingly leveraged social media to recruit as well as to 
radicalize. Fox News recently reported how Facebook is using 
artificial intelligence and machine learning to detect as well 
as filter these threats.
    Mr. Taylor, you touched on this in your testimony. My 
question is, How can the government incentivize and leverage 
this activity among private businesses while at the same time 
preserving First Amendment rights?
    Mr. Taylor. Thank you, sir, for the question.
    I would say homeland security, as you know, is a shared 
responsibility, so it is not one entity, whether it is the FBI 
or NCTC, DOD, that is going to be able to respond and protect 
all aspects of the threats that are facing the country.
    I think our biggest part from DHS's perspective is 
partnerships. It is a responsibility and one of the things that 
is in our core competencies is to work with our private sector, 
our State and locals, in order to best identify and provide 
them with the information that is relevant so that they can 
take action, so that they can police themself when it comes to 
some of these areas, while also protecting people's First 
Amendment's rights for comments.
    I think it is a significant challenge working with the 
private sector, whether it is with the critical infrastructure 
sector, which is 95 percent owned by private industry, in order 
to leverage the data that we own or we possess within the IC 
informing them at the level in which it can be actually 
actioned, so that they can take action to mitigate threats that 
they face, or to also identify whether it is insider threats, 
etc., that wish to do them harm.
    Senator Daines. The FBI has identified the Internet and 
social media as two of the greatest factors contributing to the 
terrorism threat landscape. In fact, one company in my hometown 
of Bozeman, Montana, has developed advanced technologies to 
deny, disrupt, and defend against advanced cyber risks, which 
were used extensively, in fact, during the last presidential 
election, and they helped identify four ISIS members in Germany 
this time last year.
    Ms. Floris, how does the FBI's counterterrorism strategies 
address these threats, and how is the agency leveraging 
private-sector companies, new technologies, such as HOPLITE, to 
identify and investigate potential threats?
    Ms. Floris. Thank you, sir.
    I can certainly say that from the Counterterrorism 
Division's perspective, the increases in use in social media to 
radicalize and inspire individuals has certainly been a concern 
of ours, especially with the rise of ISIS, and we have 
significantly shifted resources to address this change and how 
they essentially reach individuals here in the United States.
    I would say in the 2015 timeframe, this became more 
apparent than any other timeframe that we were tracking ISIS.
    We continue to have outreach to the private-sector 
companies, dialogue about what the threat picture is, how 
relevant social media is to the increased threat picture we 
face here in the homeland.
    Propagating terrorist messaging in and of itself is not a 
crime, so we are certainly limited based on what we can and 
cannot do with First Amendment-protected rights.
    That being said, socializing these private companies to the 
threat and to how their companies in social media is being used 
to propagate the message then empowers them to do something on 
their behalf with the tools that they have in place within 
their own companies, and we have certainly seen some successes 
in the private sector industry, a more willingness to work with 
the U.S. Government, and essentially be part of the solution 
when it comes to thwarting these national security threats.
    Senator Daines. Having been one who spent 13 years in a 
cloud computing startup, I went from a small company to a 
world-class enterprise software operation. I am grateful that 
we are keeping an eye on some of these fast-moving, fast-
developing startups. Oftentimes the greatest innovation is 
found--they always say nobody gets fired for buying--you fill 
in the blank--your large enterprise software company. I will 
not make anybody mad here by putting a name in there, but I 
think sometimes we see the best solutions coming out of the 
private sector and some of these smaller companies.
    I want to shift gears here and talk about some cyber 
attacks, one that was very relevant to my State, and a 
clandestine cyber attack. These have become the preferred 
weapon of our adversaries to adversely affect Americans here at 
home.
    We had a recent attack on a Montana school in Columbia 
Falls by an overseas actor. It forced the closure of several 
schools. It affected over 15,000 students.
    Ms. Shiao, how is the intelligence community staying ahead 
of these threats, and is the information gathered being used in 
meaningful ways to reduce these types of attacks?
    Ms. Shiao. I can definitely speak to this from the 
perspective of terrorist use of the Internet, and at NCTC, we 
coordinate whole-of-government integrated action on terrorist 
use of the Internet, particularly ISIS, as part of the larger 
defeat-ISIS strategies that we develop.
    In the analytic community, it is obviously a large focus of 
our attention to make sure that we accurately assess all 
terrorist cyber capabilities. As I had said, earlier, we do not 
see hacking skills as one of ISIS's core strengths in 
particular. For them, we worry about the propaganda space, but 
I am happy to defer to DHS or others who cover cyber more 
broadly than just from a terrorism perspective.
    Senator Daines. Thoughts on that, Mr. Taylor?
    Mr. Taylor. Sir, I would say from DHS's perspective, part 
of our goal is to inform those, whether it is State and local 
government or private-sector entities, of the threat that has 
been identified from the IC, getting it into a level that it 
can be shared and passed on to the State and local network 
defenders, etc. so that they can take the proactive or 
mitigation activities in order to eliminate the threat.
    It is something in which our National Protection and 
Programs Directorate does every day with taking that 
information and working with those sectors, and with those 
State and locals, whether it is by the deployment of cert teams 
that are going out to help the mitigation of vulnerabilities, 
or threats that have occurred, or attacks that have happened to 
help them reconstitute their activities, so that is from the 
DHS aspect.
    Directly to your question on the events at the Montana 
school, I would defer to the FBI.
    Senator Daines. OK. Thank you.
    Chairman Johnson. Thank you, Senator Daines.
    I just have a couple lines of questioning, and then we will 
close out the hearing.
    When we talk about the cyber caliphate, in my mind, it is 
really split in two categories. One is encryption being used, 
but quite honestly, I am not sure there is much of anything we 
can really do about it.
    By the determined terrorists, people are already part of 
the organization, people they have identified that they want to 
help direct, and then you just have the more broad use of the 
social media platforms. And I think both of those really 
represent totally different risks and aspects of this.
    We have talked about social media companies trying to 
identify automatically, take down some of these materials. I 
want to talk a little bit--and it is one of the reasons I asked 
Justice Department to be part of this--the legal authority we 
have, and I want to do it in the framework of what we currently 
do with the laws in the books, for example, to combat child 
pornography versus what legal authorities we have to combat 
instructions on how to commit terrorist acts.
    Can you just kind of speak to the difference between those 
two aspects? Do we need expanded legal authority to be able to 
force this--well, first of all, to make it illegal, the use of 
it, the downloading of it?
    Can you speak to that, Ms. Floris?
    Ms. Floris. So as far as expanding authorities, I would 
have to defer that line of questioning to my colleagues at the 
Department of Justice.
    I will say that right now, possessing, downloading, storing 
any sort of radicalizing material in and of itself is not a 
crime, again, because the protection of the First Amendment. 
That being said----
    Chairman Johnson. But, again, child pornography is.
    Ms. Floris. Absolutely, sir.
    Chairman Johnson. So we have a real distinction there. OK.
    Ms. Floris. Absolutely. And whether we need and/or are 
pushing for legislation on the idea of extremist propaganda, I 
certainly cannot speak to that, but I am happy to take that 
question back.
    Chairman Johnson. Because the fact of the matter is, if we 
make it more difficult to obtain this, we make it illegal to 
download it, again, we certainly have not removed all child 
pornography off the Internet, but it is probably far less 
prevalent on the Internet than some of this ISIS inspiring-type 
material, correct? I mean, is that basically a true statement?
    Ms. Floris. You are absolutely right. We being the FBI have 
not taken down any sort of extremist propaganda. As I said, 
some companies are doing it on their own accord, and we have 
seen some successes in removing extremist content from these 
social media platforms.
    What we are doing is continuing to work with our IC 
partners and certainly our partners in DOD to identify 
individuals involved in the production of this media, 
individuals we know are definitively tied to foreign terrorist 
organizations, individuals that we can actually go out there 
and charge with some sort of material support clause.
    Chairman Johnson. Would any other witnesses want to command 
on that particular point?
    Mr. Mitchell. I would just say from the Department of 
Defense perspective, we have very actively sought to identify 
and to target those individuals and those nodes, particularly 
within Iraq and Syria, the leadership and their lower echelons 
that are involved in that production, and I think we have done 
that very effectively. We have seen a significant decrease in 
there propaganda output.
    Chairman Johnson. And, again, without giving away any State 
secrets on this, is it possible for us to identify where this 
is coming from and pretty effectively target it, or is it 
pretty difficult because it is very difficult to identify the 
source within the World Wide Web?
    Mr. Mitchell. I think there are some efforts that we can 
identify, and this is another area where our efforts under the 
Operation Gallant Phoenix in Jordan become very important 
because if we can identify them and they are one of those 
countries that we are partnered with, we can share that 
information with their law enforcement agencies and identify 
those individuals and hopefully bring them to justice.
    Chairman Johnson. Again, I am centering on this because 
this is the new caliphate in cyberspace.
    For example, Ms. Floris, I just want to ask you the 
question. ISIS has claimed responsibility for the Las Vegas 
attack. Have you uncovered any evidence that would lend 
credence to that claim?
    Ms. Floris. No, sir, we have no evidence at this point that 
Las Vegas was ideologically motivated.
    Chairman Johnson. OK.
    Ms. Floris, also in your testimony, you spoke about the 
Section 702 authority expiring at the end of this year. I will 
ask all the witnesses. Is there any evidence? Has there been 
any claim of an abuse, civil liberties abuse under Section 702 
since it has been enacted? Because that is obviously one of the 
pushbacks of reauthorizing that program.
    And then I would also ask you to talk about why you think 
it is pretty important to reauthorize that.
    Ms. Floris. Sure. I can start and certainly turn it over to 
my colleagues.
    To your first question, sir, not that I am aware of that 
there has been any abuses of this tool, and I will say that the 
FBI strongly supports renewal of 702 collection. It is one of 
the most valuable tools, I would say, in our toolkit when it 
comes to thwarting the national security threats that we face 
today.
    In the world we live in today, we are finding just one 
piece of intelligence can lead to a complete disruption. In my 
mind, we need to be cognizant to maintain whatever we have to 
make sure that we are well placed to identify those nodes of 
intelligence.
    Chairman Johnson. So, again, without revealing any 
classified information, are there any metrics you can point to 
of how effective Section 702 has been, attacks thwarted, that 
type of thing?
    Ms. Floris. Not off the top of my head, sir, but I am 
certainly happy to take that question back.
    Chairman Johnson. Can you say that there have been 
attacks----
    Ms. Floris. There have been, sir.
    Chairman Johnson. There have been attacks thwarted because 
of Section 702?
    Ms. Floris. Yes, sir. There is one example that comes to 
mind that I can certainly speak to in a classified setting.
    Chairman Johnson. OK.
    I would just ask, Mr. Taylor, you do have--DHS does have--
and the Office of Intelligence and Analysis has the legal 
authority to collect and disseminate this type of threat 
information. Part of the reason DHS was established was after 
the 9/11 incident, the attack. There were reports of stovepipes 
within these different agencies, and this is an attempt to 
knock down those stovepipes.
    First of all, how effective have we been at eliminating 
those stovepipes? Are they still in existence? Are they being 
built back up? What is the current State of information sharing 
within our agencies?
    Mr. Taylor. Thank you, Senator, for the question.
    I would say within DHS, there is certainly a new review 
from top to bottom as far as integrating, better integrating 
intelligence and operation within the Department as a whole.
    Whether it is daily conferences that the Secretary will 
host with the operation components to ensure when the threat 
information has been identified from the IC that there is 
appropriate mitigation response, and what are long-term 
vulnerabilities identified from the Department aspect.
    Working closely with our State and locals, that is an 
everyday activity that the deployed personnel of the 
Department, whether from I&A proper or from the other operation 
components, generally tried to leverage the entities that are 
deployed around the country, whether you are in southwest 
Texas, southeast Texas, etc on the information that they have--
State and locals, that is relevant to the IC and pulling that 
information back to ensure it is appropriately shared.
    But it is a two-way street. It is the responsibility of our 
Department to ensure that the information from the IC that is 
relevant to our State and local partners is put into a form 
that can be shared at the appropriate classification level so 
that they can take actions to mitigate responses and threats 
within.
    Chairman Johnson. And I would say that is the pretty 
consistent complaint I have from State and local is send a lot 
of information up, do not get nearly as much back down. I 
understand there is a real issue there too.
    So any other of the witnesses want to comment on that? Are 
you particularly identify problems that need to be addressed.
    Start with you, Mr. Mitchell.
    Mr. Mitchell. I thank you, Senator.
    I am not aware of any significant problems. I think our 
overall inter-agency communications are working very well and 
better than they have in a long time.
    Chairman Johnson. So it has been improved significantly 
since 9/11?
    Mr. Mitchell. Yes, absolutely.
    Chairman Johnson. Ms. Shiao.
    Ms. Shiao. I absolutely agree, and I would just emphasize 
that at NCTC, we see it as a very core and critical part of our 
mission to keep State, local, and tribal officials completely 
informed of the threat picture. So all of our analysts when 
they are sitting down, even to write for the most senior 
customers, are also thinking about how they can tell that story 
at the lowest classification level, get it out to the 
unclassified arena, and figure out how to inform that audience 
in particular.
    Chairman Johnson. Ms. Floris.
    Ms. Floris. I would certainly echo the comments of my 
colleagues. Information, intelligence sharing, whether it is 
across the community or with our partners, is absolutely 
paramount to our mission, and you can look at any one of the 
hundreds of Joint Terrorism Task Forces (JTTFs) we have across 
all 56 of our field offices as really a primary example of this 
inter-agency collaboration and collaboration with our State and 
local partners as well.
    Chairman Johnson. OK. Thank you.
    Well, again, I want to thank the witnesses for taking the 
time to testify, the answers to our questions, your testimony, 
for your service to this Nation. Please convey the gratitude of 
this Committee and quite honestly I think every American to the 
men and women in your agencies that are doing everything they 
can to keep this Nation safe and secure, so our sincere 
gratitude and thanks.
    With that, the hearing record will remain open for 15 days 
until December 21, 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
